No.________
IN THE SUPREME COURT OF THE UNITED STATES
JOSHUA BAKER, in his official capacity as Director, South Carolina Department
of Health and Human Services,
Applicant/Petitioner,
v.
PLANNED PARENTHOOD SOUTH ATLANTIC; JULIE EDWARDS,
on her behalf and on behalf of all others similarly situated,
Respondents.
Certificate of Service

I, Kelly M. Jolley, a member of the Supreme Court Bar, hereby certify that:
(1) an original and two copies of this Application for Extension of Time to File a Petition
for Writ of Certiorari were filed by delivering it on January 3, 2020 to a third-party
commercial carrier for next-day delivery to the Clerk of this Court, as permitted by
Rule 29.2;
(2) a copy of this Application for Extension of Time to File a Petition for Writ of Certiorari
was submitted to the Court’s electronic filing system in conformity with Rule 29.7 and
the “Guidelines for the Submission of Documents to the Supreme Court’s Electronic
Filing System”; and
(3) one copy of the same Application was served as required by Rule 29.3 by delivering it
on January 3, 2020 to a third-party commercial carrier for next day delivery on the
following counsel for each separately-represented party:
M. Malissa Burnett, Esq.
Kathleen M. McDaniel, Esq.
Burnette Shutt McDaniel
912 Lady Street, Second Floor
Columbia, SC 29201

1

Alice Clapman, Esq.
Planned Parenthood Federation of America
1110 Vermont Ave., NW, Suite 300
Washington, DC 20005
Jennifer Sandman
Planned Parenthood Federation of America
123 William St., 9th Floor
New York, NY. 10038
I further certify that all parties required to be served have been served.
____________________________________
Kelly M. Jolley
JOLLEY LAW GROUP
1221 Main Street, Suite 1100
Columbia, SC 29201
803-830-6500
kmj@jolleylawgroup.com

2

